                                                EMPLOYMENT AND
                                                TRAINING
                                                ADMINISTRATION
Office of Inspector General—Office of Audit 





                                                RECOVERY ACT: WORKFORCE INVESTMENT
                                                ACT YOUTH PROGRAM


                                                This audit was performed by Ollie Green & Company, CPA’s, under contract to
                                                the Office of Inspector General, and by acceptance, it becomes a report of the
                                                Office of Inspector General.




                                                                   _____________________________
                                                                     Assistant Inspector General for Audit




                                                                                   Date Issued:                March 31, 2011
                                                                                Report Number:               18-11-006-03-390
U.S. Department of Labor
Office of Inspector General
Office of Audit                                           March 2011

                                                          RECOVERY ACT: WORKFORCE INVESTMENT ACT
BRIEFLY…                                                  Youth Program
Highlights of Report Number: 18-11-006-03-390, to the
Assistant Secretary for Employment and Training.          WHAT OIG FOUND
                                                          The OIG found that Local Areas had spent $1.044
WHY READ THE REPORT                                       billion of their Recovery Act WIA Youth funding by
Congress enacted the American Recovery and                September 30, 2010, and that 80 percent of those funds
Reinvestment Act of 2009 (Recovery Act), to promote       were spent on summer employment opportunities and
economic recovery and assist those impacted by the        paid and unpaid work experiences consistent with
recession. Title VIII of the Recovery Act provided the    ETA’s Recovery Act program goals. We also noted that
Department of Labor (DOL) with an additional $1.2         $5.8 million was spent on green industry activities (i.e.,
billion in Workforce Investment Act (WIA) formula funds   solar, recycling, etc.).
for youth employment and training activities. These
funds are administered by the Employment and              We found that 49 percent of WIA Youth Program
Training Administration (ETA). The Act allowed the        participants were 14-17 years old and that a majority
Department to retain 1 percent ($12 million) of these     were minorities. Participants received services in all 10
funds for program administration and oversight.           Section 129 program elements, to include summer
                                                          employment opportunities, tutoring, and adult
WHY OIG CONDUCTED THE AUDIT                               mentoring. These services contributed to the attainment
The Office of Inspector General (OIG) conducted an        of work readiness skills for 76 percent of participants
audit to determine how Local Areas are using the          and to the attainment of part-time or full-time
additional WIA Youth Program funds provided by the        employment for 9 percent.
Recovery Act, and to determine the impact of extending
the age limit from 21 to 24 year old youth – both in      Local Areas did not track the use of the Work
terms of participants served in that age range, the       Opportunity Tax Credit by employers.
services provided to the extended population, and the
outcomes achieved. Specifically, our audit objectives
were to answer the following questions:                   WHAT OIG RECOMMENDED
                                                          There were no findings and recommendations as a
(1) How did Local Areas spend or how were they            result of this audit. ETA agrees with the audit results
planning to spend their allocation of WIA Youth Formula   contained in this report.
Funds?

(2) Who were the participants in the WIA Youth
Program?

(3) What services were participants in the WIA Youth
Program receiving?

(4) What were the outcomes for participants enrolled in
the WIA Youth Program?

(5) To what extent were employers using the Work
Opportunity Tax Credit to hire disconnected youth (ages
16 to 24) as provided by the Recovery Act?


READ THE FULL REPORT
To view the report, including the scope, methodology,
and full agency response, go to:
http://www.oig.dol.gov/public/reports/oa/2011/18-11-
006-03-390.pdf
                      Prepared by Ollie Green & Company, CPA’s
       for U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                  Recovery Act: WIA Youth Program
                                      Report No.18-11-006-03-390
                                                                 Prepared by Ollie Green & Company, CPA’s
                                                  for U. S. Department of Labor – Office of Inspector General


Table of Contents 

Independent Auditor’s Report...................................................................................... 1
	
	

Objective 1 — How did Local Areas spend or are planning to spend their 

              allocation of WIA Youth Formula Funds? .......................................... 3
	
	
         Local Areas spent 80 percent of their Recovery Act WIA youth allocation 

         on summer employment opportunities and part-time and full-time work 

         experiences. ......................................................................................................... 3
	
                                                                                                                                 
	

Objective 2 — Who are the participants in the WIA Youth Program? ...................... 5
	
	
         Participant ages 14-17 years old represented 49 percent of the Recovery 

         Act WIA Youth Program enrollment...................................................................... 5
	
	

Objective 3 — What services are participants in the WIA Youth Program 

              receiving? ............................................................................................. 8
	
                                                                                                                        
	
         Participants enrolled in the Recovery Act WIA Youth Program received 

         services in all 10 Section 129 program elements. ................................................ 8
	
                                                                                                            
	

Objective 4 — What were the outcomes for participants enrolled in the WIA Youth 

              Program? .............................................................................................. 9
	
	
         Attainment of work readiness skills represented 76 percent of the 

         outcomes for participants enrolled in the Recovery Act WIA Youth 

         Program................................................................................................................ 9
	
	

Objective 5 — To what extent were employers using the Work Opportunity Tax 

              Credit to hire disconnected youth (ages 16-24) as provided by the 

              Recovery Act? .................................................................................... 10
	
	
         Local Areas did not track employer’s use of the Work Opportunity Tax 

         Credit.................................................................................................................. 10
	
                                                                                                                                    
	

Exhibit
         Exhibit 1 Recovery Act LWIB/INA Sample.......................................................... 15
	
                                                                                                            
	

Appendices
         Appendix A Background ..................................................................................... 21
	
                                                                                                                       
	
         Appendix B Objectives, Scope, Methodology, and Criteria ................................ 23
	                 
	
         Appendix C Acronyms and Abbreviations .......................................................... 27
	         
	
         Appendix D ETA Response to Draft Report ....................................................... 29
	          
	
         Appendix E Acknowledgements ......................................................................... 31
	    
	




                                                                                        Recovery Act: WIA Youth Program
                                                                                            Report No.18-11-006-03-390
                      Prepared by Ollie Green & Company, CPA’s
       for U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                  Recovery Act: WIA Youth Program
                                      Report No.18-11-006-03-390
                                                 Prepared by Ollie Green & Company, CPA’s
                                  for U. S. Department of Labor – Office of Inspector General




                            Independent Auditor’s Report

Ms. Jane Oates
Assistant Secretary for Employment and Training
  Employment and Training Administration
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, D.C. 20210

The American Recovery and Reinvestment Act of 2009 (Recovery Act) was passed to
preserve and create jobs, promote economic recovery, and assist those most impacted
by the recession. Title VIII of the Recovery Act provided the Department of Labor with
an additional $1.2 billion in Workforce Investment Act (WIA) formula funds for youth
employment and training activities. The Recovery Act also extended the youth eligibility
age from 21 to 24. The Recovery Act allows states and outlying areas, and Indian and
Native American grantees to spend additional WIA Youth Program funds on activities
related to any of the 10 program elements described in Section 129 of WIA. Because
the Recovery Act allows the Department to retain one percent (1 percent) of the funds
for program administration and oversight, the actual allotment to the States and outlying
areas and Indian and Native American grantees was $1.188 billion. Grantees have until
June 30, 2011, to spend these additional funds.

Our audit objectives were to determine (1) how Local Areas spent or were planning to
spend their allocation of Recovery Act WIA Youth Formula Funds; (2) who were the
participants in the Recovery Act WIA Youth Program; (3) what services were
participants in the Recovery Act WIA Youth Program receiving; (4) what were the
outcomes for participants enrolled in the Recovery Act WIA Youth Program; and (5) to
what extent were employers using the Work Opportunity Tax Credit to hire disconnected
youth (ages 16 to 24) as provided by the Recovery Act.

The audit included a review of documents and data available from ETA’s office. It
included structured interviews and data collection instruments administered to heads of
State Youth Program offices or their designees in a stratified universe of 830. The
interviews were conducted during November 2010 through February 2011, and included
available data through September 30, 2010.




                                                             Recovery Act: WIA Youth Program 

                                            1                    Report No.18-11-006-03-390
                                                 Prepared by Ollie Green & Company, CPA’s
                                  for U. S. Department of Labor – Office of Inspector General

RESULTS IN BRIEF

We estimated, based on the results of our sample, that Local Workforce Investment
Boards and Indian and Native American grantees (LWIB/INA) spent 80 percent of their
allocation of Recovery Act funds on summer employment opportunities and paid and
unpaid work experiences. These two categories are allowable program
activities/elements under WIA Section 129. LWIB/INAs spent $415.5 million (40
percent) of their Recovery Act WIA Youth Program funds on summer employment
opportunities. Another $416.1 million (40 percent) was spent on paid and unpaid work
experience as of September 30, 2010.

Based on our sampling results, we estimated $24.8 million (36 percent) of LWIB/INAs
“unused” Recovery Act funds would be spent on “other,” while $20.8 million (30 percent)
of these unused funds would be spent on paid and unpaid work experiences by the
June 30, 2011, cutoff date. We estimated they would spend $12.4 million (18 percent)
of their unused Recovery Act funds for follow-up services. We also estimated that
LWIB/INAs spent $5,876,646 of their Recovery Act WIA Youth funds on green industry
activities.

Our audit found that most participants enrolled in the Recovery Act WIA Youth Program
were between the ages of 14 and 17 years old. We also found that program
administrators enrolled eligible participants from many cultures. African Americans
represented 47 percent of the participants while Hispanics represented another 16
percent. Caucasians represented 27 percent of the participants enrolled. We found
that 10 percent of the participants enrolled in the Recovery Act WIA Youth Program fell
within the Recovery Act expanded age range (22-24). We also noted that veterans
represented less than one percent (1 percent) of the total participant enrollment.

We found that LWIB/INAs enrolled more than 460,000 eligible participants in the
Recovery Act WIA Youth Program and provided eligible youth with activities and
services related to all 10 of the WIA Section 129 program elements. Many of the
participants received services and activities in more than one program element
category.

Our audit found that the outcome for 349,502 (76 percent) of the participants enrolled in
the Recovery Act WIA Youth Program was the attainment of work readiness skills.
Part-time and full-time employment accounted for 40,635 (9 percent) of the total
outcomes of the Recovery Act Youth Program. We also found that 7,915 (1 percent)
received secondary school diplomas, while 8,769 (2 percent) received post secondary
education.

Finally our audit found that LWIB/INAs were not required to track the Work Opportunity
Tax credit (WOTC) used by employers to hire “disconnected youth,” ages 16 to 24, as
provided by the Recovery Act. Although 14 of the respondents surveyed indicated that
they had implemented systems designed to track the WOTC used by employers; forty-
eight others told us that they did not have systems in place designed to track the use of

                                                             Recovery Act: WIA Youth Program 

                                            2                    Report No.18-11-006-03-390
                                                 Prepared by Ollie Green & Company, CPA’s
                                  for U. S. Department of Labor – Office of Inspector General

the credit and another 21 told us that they could not determine whether they had
systems in place to track the use of the credit. We found that States are required to
submit quarterly reports that provide information on applications received, certified
and/or denied. These reports include information on the two new target groups,
disconnected youth and unemployed veterans.

ETA agrees with the audit results and believes the positive results demonstrate that
ETA effectively implemented the Recovery Act Youth activities funding provided by
Congress. ETA’s comments are included in their entirety in Appendix D.

There were no findings and recommendations as a result of this audit. The OIG has
made technical changes in the report based on comments ETA provided in response to
the draft report. We believe ETA complied with Recovery Act WIA activities funding
requirements.

RESULTS

Objective 1 — How did Local Areas spend or how were they planning to spend
              their allocation of WIA Youth Formula Funds?

      Local Areas spent 80 percent of their Recovery Act WIA youth allocation on
      summer employment opportunities and part-time and full-time work experiences.

As indicated in Table 1 below, LWIB/INAs spent an estimated $1.044 billion of their
Recovery Act formula funding by September 30, 2010; our audit found, based on
sampling results, that $68.5 million had not yet been spent. The Recovery Act requires
that all WIA formula funds are expended by June 30, 2011. Most LWIB/INAs indicated
that they planned to spend their unused funds by the June 30, 2011 deadline. Table 1
also illustrates that LWIB/INAs spent most of their Recovery Act WIA Youth Program
funds on summer employment opportunities (40 percent) and paid and unpaid work
experiences (40 percent). LWIB/INAs spent (80 percent) of their allocation of Recovery
Act funds in these two categories.




                                                             Recovery Act: WIA Youth Program 

                                            3                    Report No.18-11-006-03-390
                                                              Prepared by Ollie Green & Company, CPA’s
                                               for U. S. Department of Labor – Office of Inspector General


Table 1:         Extrapolated Spending by Section 129 Allowable Program Elements
                 and Activities

WIA Program Elements/Activities                                 Amount Spent By 9/30/10          Percent
Tutoring, study skills training                                                 $3,491,972              1
Alternative secondary school offerings                                             915,649              1
Summer employment opportunities                                               415,565,223              40
Paid and unpaid work experiences                                              416,165,462              40
Occupational skills training                                                    13,041,671              1
Leadership development opportunities                                            15,771,706              1
Supportive services                                                             34,539,817              3
Adult mentoring                                                                  4,797,232              1
Follow-up services                                                               1,753,721              1
Comprehensive guidance and counseling                                           26,286,954              2
Other 1                                                                       112,456,546               9
Total                                                                      $1,044,785,953             100

As indicated in Table 2 below, LWIB/INAs also told us in surveys and data collection
instruments that of their $68.5 million unused Recovery Act funding at September 30,
2010, $24.8 million would be spent on “other,” $20.8 million on paid and unpaid work
experiences, and $12.4 million for follow-up services. LWIB/INAs also indicated that
$5.8 million of their Recovery Act WIA Youth funds were spent on green industry
activities (i.e. solar, recycling, etc, etc).


Table 2 : Projected Spending For Unused Recovery Act Funds


WIA Program Elements/Activities                                 Amount Planned By 6/30/11       Percent
Tutoring, study skills training                                                   $206,641            1
Alternative secondary school offerings                                             572,057            1
Summer employment opportunities                                                    529,538            1
Paid and unpaid work experiences                                                20,873,062           30
Occupational skills training                                                     5,179,652            8
Leadership development opportunities                                             1,208,233            1
Supportive services                                                              2,004,351            2
Adult mentoring                                                                    168,240            1
Follow-up services                                                              12,478,341           18
Comprehensive guidance and counseling                                              456,790            1
Other 2                                                                         24,827,015           36
Total                                                                         $68,503,920           100


1
    Includes unallocated indirect program and other administrative costs.
2
    Include unallocated indirect program and other administrative costs.

                                                                            Recovery Act: WIA Youth Program
                                                            4                   Report No.18-11-006-03-390
                                                           Prepared by Ollie Green & Company, CPA’s
                                            for U. S. Department of Labor – Office of Inspector General

Objective 2 — Who were the participants in the WIA Youth Program?

        Participant ages 14-17 years old represented 48 percent of the Recovery Act
        WIA Youth Program enrollment.

The objective of this part of our audit was to determine who were the participants
enrolled in the Recovery Act WIA Youth Program. To conduct our work, we requested
LWIB/INAs to provide data on the characteristics of the participants enrolled from
Recovery Act inception (February 17, 2009) through September 30, 2010. Tables 3
through 9 below summarize the characteristics of the participants enrolled from
Recovery Act inception through September 30, 2010, by participant count and seven
different categories. 3

Table 3 below shows that 225,439 (48 percent) of the participants enrolled were within
the age range of 14 to 17. Another 131,179 (28 percent) fell within the 18 to 19 age
range. Title VIII (Division A) of the Recovery Act temporarily extended the age limit
from 21 to 24; this expanded age range accounted for only 44,609 (10 percent).


Table 3: Projected Participant Ages


Ages                                                         Participant Count                         Percent
14-15                                                                                    80,013             17
16-17                                                                                   145,426             31
18-19                                                                                   131,179             28
20-21                                                                                    61,816             14
22-24                                                                                    44,609             10
Total                                                                                   463,043            100

Table 4 below shows that 353,704 (96 percent) of the participants who enrolled in the
Recovery Act WIA Youth Program were unemployed at enrollment. Fifteen of the
respondents surveyed did not track this information or did not respond to this question
in our survey/DCI.


Table 4: Projected Employment Status at Enrollment


Participant Employment Status                                Participant Count                         Percent
Employed                                                                                 14,858              4
Unemployed                                                                              353,704             96
Total                                                                                   368,562            100


3
 Total participant counts in Tables 3 through 9 may not align because not all respondents answered all DCI
questions.

                                                                             Recovery Act: WIA Youth Program
                                                         5                       Report No.18-11-006-03-390
                                                 Prepared by Ollie Green & Company, CPA’s
                                  for U. S. Department of Labor – Office of Inspector General

Table 5 below shows that a slight majority 229,843 (50 percent) of the participants
enrolled in the Recovery Act WIA Youth Program were female. Our audit found that
there was a virtual even gender split for participant enrolled in the Recovery Act WIA
Youth Program as of September 30, 2010.


Table 5: Projected Gender


Participant Gender                              Participant Count                 Percent
Male                                                                  229,356          50
Female                                                                229,843          50
	
	
Total                                                                 459,199         100

Table 6 below shows that most participants enrolled in the Recovery Act WIA Youth
program were minority youth. We found that 213,895 (47 percent) of the participants
enrolled in the Recovery Act WIA Youth Program were of African American heritage.
Another 76,082 (16 percent) participants were of Hispanic heritage. However, Table 6
also illustrates that program administrators recruited and enrolled a diverse group of
participants from many cultures. Caucasians represented 27 percent of the participants
enrolled.


Table 6: Projected Race and Ethnicity

Race                                            Participant Count                 Percent
African American                                                      213,895          47
American Indian or Alaskan                                             15,327           3
Asian                                                                   6,854           1
Caucasian                                                             126,177          27
Hawaiian or Pacific Islander                                            8,286           2
Hispanic                                                               76,082          16
More Than One Race                                                      8,006           2
Other                                                                   7,177           2
Total                                                                 461,804         100

Table 7 below indicates that 602 (58 percent) of the veterans who enrolled in the
Recovery Act WIA Youth Program fell within the Recovery Act expanded age range of
22 to 24. Veterans were a very small percentage of the Recovery Act WIA Youth
Program; less than 1 percent of the total participant enrollment.




                                                             Recovery Act: WIA Youth Program 

                                            6                    Report No.18-11-006-03-390
                                                 Prepared by Ollie Green & Company, CPA’s
                                  for U. S. Department of Labor – Office of Inspector General


Table 7: Projected Veterans

Veteran Ages                                    Participant Count                 Percent
19-21                                                                      444         42
22-24                                                                      602         58
	
	
Total                                                                    1,046        100

Table 8 below shows that 116,493 (42 percent) participants were basic literacy skill
deficient. Another 51,545 (19 percent) participants were pregnant or parenting youth.
Twelve of the respondents surveyed did not track this information or did not respond to
this question in our survey/DCI.


Table 8: Projected Barriers to Employment

Barriers to Employment                          Participant Count                 Percent
Homeless of Runaway                                                     9,527           4
	
	
Offender                                                               25,428           9
	
	
Pregnant of parenting youth                                            51,545          19
Basic literacy skills deficient                                       116,493          42
Other                                                                  71,264          26
Total                                                                 274,257         100

Table 9 below shows that 239,427 (66 percent) participants had not completed high
school. This group included 41,226 (11 percent) participants who had completed
middle school as their highest grade. Table 9 also shows that 121,854 (34 percent) had
completed high school, high school equivalency, post -secondary and/or college. This
group also included 1,599 (1 percent) college graduates. Eighteen of the respondents
surveyed did not track this information or did not respond to this question in our
survey/DCI.


Table 9: Projected Education

Highest Grade Completed                         Participant Count                 Percent
Middle School                                               41,226                     11
Some High School                                          198,201                      55
High School Graduate                                        82,868                     23
High School Equivalency                                     10,074                      3
Some Post-Secondary                                         27,313                      7
College Graduate - 4 Year                                    1,599                      1
Total                                                     361,281                     100



                                                             Recovery Act: WIA Youth Program 

                                            7                    Report No.18-11-006-03-390
                                                            Prepared by Ollie Green & Company, CPA’s
                                             for U. S. Department of Labor – Office of Inspector General

Objective 3 — What services were participants in the WIA Youth Program
              receiving?

           Participants enrolled in the Recovery Act WIA Youth Program received services
           in all 10 Section 129 program elements.

The objective of this part of our audit was to determine what services were received by
participants enrolled in the Recovery Act WIA Youth Program from Recovery Act
inception to September 30, 2010. We requested respondents to provide information on
services provided to participants enrolled in their WIA Youth Programs. We found that
LWIB/INAs provided services to participants in all 10 of the Section 129 program
elements.

Table 10 below shows that 993,715 participants received services through the Recovery
Act WIA Youth Program. This number is inflated for participants who received services
in more than one program element category.


Table 10 : Projected Services Received by Participant Count



WIA Program Elements                                          Participant Count                    Percent
Tutoring, study skills training                                           11,612                         1
Alternative secondary school offerings                                     2,074                         1
Summer employment opportunities                                         254,542                         26
Paid and unpaid work experiences                                        244,187                         25
Occupational skills training                                              11,980                         1
Leadership development opportunities                                      73,464                         7
Supportive services                                                     139,730                         14
Adult mentoring                                                           21,087                         2
Follow-up services                                                        24,481                         2
Comprehensive guidance and counseling                                     86,678                         9
Other 4                                                                 123,880                         12
Total                                                                   993,715                        100

Table 11 below illustrates services received by dollar amount. LWIB/INAs spent an
estimated $1.044 billion of their Recovery Act WIA Youth Program funds by September
30, 2010. As indicated, 80 percent of the services received by participants were
concentrated in the summer employment opportunities and paid and unpaid work
experiences categories. These activities are consistent with the LWIB/INAs spending
assessment discussed in objective number one.



4
    Some respondents indicated that they could not determine which category was most appropriate

                                                                             Recovery Act: WIA Youth Program 

                                                          8                      Report No.18-11-006-03-390
                                                              Prepared by Ollie Green & Company, CPA’s
                                               for U. S. Department of Labor – Office of Inspector General



Table 11: Projected Services Received by Participants by Dollar Amount


WIA Program Elements/Activities                                 Amount Spent By 9/30/10       Percent
Tutoring, study skills training                                              $3,491,972                1
Alternative secondary school offerings                                          915,649                1
Summer employment opportunities                                             415,565,223               40
Paid and unpaid work experiences                                            416,165,462               40
Occupational skills training                                                 13,041,671                1
Leadership development opportunities                                         15,771,706                1
Supportive services                                                          34,539,817                3
Adult mentoring                                                               4,797,232                1
Follow-up services                                                            1,753,721                1
Comprehensive guidance and counseling                                        26,286,954                2
Other 5                                                                     112,456,546                9
Total                                                                    $1,044,785,953              100

Objective 4 — What were the outcomes for participants enrolled in the WIA Youth
              Program?

           Attainment of work readiness skills represented 76 percent of the outcomes for
           participants enrolled in the Recovery Act WIA Youth Program.

Our audit found that LWIB/INAs, had implemented systems designed to track the
outcomes of participants who enrolled in their Recovery Act WIA Youth Programs.
Tracking youth participation is required to manage the process of keeping participants
on track for completion of short-term skill attainment goals and preparation to move into
long-term employment, education, or training. We requested LWIB/INAs to provide
information on the outcomes of participants enrolled in the Recovery Act WIA Youth
Program from Recovery inception through September 30, 2010. TEGL 14-08 specifies
that “Any youth served with only Recovery Act funds that participates in summer
employment only, will only be included in the Youth Recovery Act report and the work
readiness indicator will be the only measure that applies to such youth.” Recovery Act
H.R.1-58 Title VIII (2) provides “That the work readiness performance indicator
described in section 136(b) (2) A (ii) (I) of the WIA shall be the only measure of
performance used to assess the effectiveness of summer employment for youth
provided with such funds.”

Table 12 illustrates that the outcome for 349,502 (76 percent) of the participants
enrolled in the Recovery Act WIA Youth Program was the attainment of work readiness
5
    Include unallocated indirect program and other administrative costs.




                                                                           Recovery Act: WIA Youth Program 

                                                            9                  Report No.18-11-006-03-390
                                                            Prepared by Ollie Green & Company, CPA’s
                                             for U. S. Department of Labor – Office of Inspector General

skills. As illustrated in Table 11 above, 40 percent of Recovery Act WIA Youth Program
funding was spent on summer youth employment opportunities. Because Recovery Act
H.R.1-58 Title VIII (2) provides “That the work readiness performance indicator
described in section 136(b) (2) A (ii) (I) of the WIA shall be the only measure of
performance used to assess the effectiveness of summer employment for youth
provided with such funds,” the level of attainment of work readiness skills outcome
reported in Table 12 below is consistent with the level of summer youth employment
funding level reported in Table 11. Part-time and full-time employment accounted for
40,635 (9 percent) of the total outcomes of the Recovery Act Youth Program. Another
7,915 (1 percent) participants received secondary school diplomas, while 8,769 (2
percent) received post-secondary education.


Table 12 : Projected Participant Outcomes

Outcomes                                                  Participant Count                        Percent
Post-secondary Education                                                 8,769                           2
Advanced Training                                                        3,832                           1
Apprenticeships                                                             66                           1
Military Service                                                           113                           1
Full-Time Employment                                                    14,549                           3
Part-Time Employment                                                    26,086                           6
Secondary School Diploma                                                 7,915                           1
High School Equivalency Diploma (GED)                                    1,709                           1
Basic Skills                                                            13,897                           3
Occupational Skills                                                     12,155                           2
Work Readiness Skills                                                  349,502                          76
Other 6                                                                 21,743                           5
Total                                                                  460,336                         100

Objective 5 — To what extent were employers using the Work Opportunity Tax
              Credit to hire disconnected youth (ages 16-24) as provided by the
              Recovery Act?

           Local Areas did not track employer’s use of the Work Opportunity Tax Credit.

The objective of this segment of our audit was to determine to what extent employers
were using the WOTC to hire disconnected youth (ages 16-24) as provided by the
Recovery Act. The Work Opportunity Tax Credit (WOTC) Program was created in 1996
by the Small Business Job Protection Act. The program provides a tax credit to
private-sector businesses to hire individuals from 12 target groups who have
consistently faced significant barriers to employment, including the two new target
groups (Unemployed Veterans and Disconnected Youth) authorized by the Recovery
Act. Our approach included surveying LWIB/INAs and using DCIs to collect information
6
    Some respondents indicated they were not able to determine the outcome.

                                                                              Recovery Act: WIA Youth Program 

                                                         10                       Report No.18-11-006-03-390 

                                                   Prepared by Ollie Green & Company, CPA’s
                                    for U. S. Department of Labor – Office of Inspector General

to determine whether systems were implemented to track the WOTC used by
employers who had hired disconnected youth.

Our audit found that LWIB/INAs were not required to track the use of the WOTC by
employers. Although 14 of the respondents surveyed indicated they or their State had
implemented systems designed to track the WOTC used by employers, 48 others told us
they did not, and 21 told us they could not determine whether or not they had systems in
place to track the use of the credit. ETA indicated that LWIB/INAs were not required to
track this information.

Based on information provided to us by LWIB/INAs in their surveys/DCIs, we could not
determine the extent that employers used the WOTC to hire disconnected youth as
provided by the Recovery Act. However, ETA provided information based on data
collected by States in their quarterly reports to ETA indicating that employers had sought
the WOTC for 135,013 disconnected youth through the quarter ended September 30,
2010. We did not audit this information.

Consistent with the Recovery Act, States were required to submit quarterly reports,
which provide information on applications received, certified and/or denied. These
reports include information on the two new target groups, disconnected youth and
unemployed veterans. An individual qualifies as a disconnected youth if they are
between the ages of 16 and 25 and have not been regularly employed or attended
school in the past 6 months, or they are not readily employable due to lack of basic
skills.

Our audit also found that State Workforce Agencies (SWA) administer the WOTC and
assist with the timely processing of applications. The operational management of the
WOTC certification process includes 1) determining whether the certification requests
were received in a timely manner, 2) verifying target group eligibility with different state
service providers, and 3) issuing to employers the state’s final determination (i.e., a
certification or denial). ETA Handbook 408 was revised to reflect the 2 new target
groups introduced by the Recovery Act and its statutory requirements. TEGL 3-09
issued on September 1, 2009, provided information and guidance to SWAs on the
effective and timely implementation of eligibility certification for the two new targeted
groups.

There were no findings and recommendations as a result of this audit.

We appreciate the cooperation and courtesies that ETA, State and LWIB/INA personnel
extended to Ollie Green & Company, CPA’s during this audit.



Ollie Green, MBA, CPA
Managing Partner



                                                               Recovery Act: WIA Youth Program 

                                             11                    Report No.18-11-006-03-390 

                      Prepared by Ollie Green & Company, CPA’s
       for U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                  Recovery Act: WIA Youth Program
                12                    Report No.18-11-006-03-390
                           Prepared by Ollie Green & Company, CPA’s
            for U. S. Department of Labor – Office of Inspector General




Exhibit 





                                       Recovery Act: WIA Youth Program
                     13                    Report No.18-11-006-03-390
                      Prepared by Ollie Green & Company, CPA’s
       for U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                  Recovery Act: WIA Youth Program 

                14                    Report No.18-11-006-03-390 

                                                           Prepared by Ollie Green & Company, CPA’s
                                            for U. S. Department of Labor – Office of Inspector General

                                                                                            Exhibit 1
Recovery Act LWIB/INA Sample
                            Local Workforce Investment Boards                            Allotment
 1    NY   New York City                                                                     $32,246,944
 2    CA   Los Angeles City                                                                   20,318,324
 3    IL   LWIA 9- City of Chicago                                                            17,390,077
 4    CA   Los Angeles County                                                                 14,920,052
 5    TX   Gulf Coast                                                                         14,761,027
 6    OH   Multiple Counties                                                                  13,507,380
 7    MI   DWDD (Detroit Workforce Development Dept)                                          11,437,983
 8    CA   San Diego County                                                                   10,499,924
 9    CA   Riverside County                                                                    9,447,056
 10   OH   Urban Youth Works/Recovery Conservation Corps                                       8,423,777
 11   CA   Fresno City/County                                                                  7,836,652
 12   PA   SE090 Philadelphia                                                                  7,399,628
 13   AL   Local Area 2 (AL Workforce Investment Area)                                         7,374,798
 14   FL   South Florida Workforce Board-Miami Dade Monroe                                     7,282,783
 15   CA   San Bernardino County                                                               7,141,256
 16   TX   Dallas                                                                              6,842,698
 17   KY   EKCEP (Eastern KY Concentrated Employment Program Inc)                              6,549,836
 18   OH   Cuyahoga County                                                                     6,367,690
 19   IL   LWIA 7- Cook County                                                                 5,676,547
 20   TX   Alamo                                                                               5,148,185
 21   TN   Title 1 Youth LWIB #13                                                              4,931,958
 22   MI   Oakland                                                                             4,904,733
 23   CA   San Jose/Silicon Valley                                                             4,744,413
 24   MS   Delta Local Workforce Investment Area                                               3,606,715
 25   NY   Disconnected Youth Contract Program                                                 3,581,359
 26   MD   Baltimore City                                                                      3,558,951
 27   MI   Capital                                                                             3,295,032
 28   GA   Atlanta Regional                                                                    3,077,911
 29   NJ   Newark                                                                              3,039,033
 30   SD   ARRA Youth funds allotted to local area                                             2,884,250
 31   MA   Area Hampden                                                                        2,562,282
 32   FL   Tampa Bay Workforce Alliance Inc-Hillsborough                                       2,534,737
 33   GA   DeKalb County                                                                       2,327,610
 34   KS   Area 3                                                                              2,305,925
 35   TX   Capital Area                                                                        2,213,498
 36   TN   Title 1 Youth LWIB #5                                                               2,197,182
 37   ND   Youth Training Program                                                              2,180,000
 38   WA   S. Central                                                                          1,794,212
 39   LA   LWIA 20                                                                             1,737,439
 40   PA   NE075 Luzerne/Schuylkill Counties                                                   1,625,837
 41   MO   Southeast                                                                           1,556,471
 42   CA   Santa Cruz County                                                                   1,535,571
 43   NY   Onondaga County                                                                     1,304,591
 44   AR   Northeast                                                                           1,297,451
 45   KS   Area 4                                                                              1,244,014
 46   NC   NC Div Juvenile Justice-Youth Detention Ctrs                                         951,630
 47   IA   Region 16 (SDA 16)                                                                   935,128


                                                                       Recovery Act: WIA Youth Program 

                                                           15              Report No.18-11-006-03-390 

                                                             Prepared by Ollie Green & Company, CPA’s
                                              for U. S. Department of Labor – Office of Inspector General

48   ME   Area ll (Hancock, Penobscot, Piscataquis)                                                   919,114
49   MO   Jefferson/Franklin Consortium                                                               892,962
50   OK   South East                                                                                  886,161
51   PA   NW145 West Central Job Partnership                                                          884,732
52   OR   Workforce Investment Council of Clackamas County (WICCO)                                    848,393
53   NJ   Essex                                                                                       810,357
54   WI   WDA #08 West Central                                                                        806,099
55   AZ   Tribal                                                                                      787,132
56   CO   Tri-County                                                                                  774,990
57   GA   Middle Georgia                                                                              773,713
58   MO   St. Charles County                                                                          748,761
59   MD   Lower Shore                                                                                 718,293
60   VI   Local Youth Program                                                                         694,487
61   NC   Region C                                                                                    666,464
62   AR   Western                                                                                     638,111
63   WI   WDA #11 Southwest                                                                           601,346
64   CA   Cal GRIP Youth Awardees-City Impact                                                         500,000
65   NP   WIA Youth ARRA                                                                              435,327
66   IN   Region 8                                                                                    411,432
67   NC   Mountain Area                                                                               407,936
68   MN   Anoka County                                                                                363,949
69   LA   LWIA 50                                                                                     354,592
70   NH   NH JAG                                                                                      349,736
71   NC   Northeastern                                                                                308,758
72   ID   Region II                                                                                   212,692
73   FL   Milestone Soc Srvs Inc Milestone Work-Aging Out Foster Care Proj                            250,000
74   MD   Southern MD                                                                                 110,344
75   AZ   Graham                                                                                       80,811
76   AZ   Navajo Nation                                                                              3,956,397
77   HI   Alu Like, Inc.                                                                             2,411,092
78   OK   Cherokee Nation of Oklahoma                                                                 871,304
79   OK   Creek Nation of Oklahoma                                                                    458,763
80   OK   Choctaw Nation of Oklahoma                                                                  375,978
81   AZ   White Mountain Apache Tribe                                                                 343,210
82   SD   Rosebud Sioux Tribe                                                                         315,615
83   AZ   Tohono O'Odham Nation                                                                       288,020
84   AZ   San Carlos Apache Tribe                                                                     286,295
85   OK   United Urban Indian Council, Inc.                                                           256,976
86   CA   California Indian Manpower Consortium, Inc.                                                 195,233
87   MN   Red Lake Tribal Council                                                                     108,654
88   MS   Mississippi Band of Choctaw Indians                                                          87,613
89   MT   Fort Belknap Indian Community                                                                65,538
90   CO   Southern Ute Indian Tribe                                                                    13,798
91   NY   Seneca Nation of Indians                                                                     41,392
92   NM   Eight Northern Indian Pueblo Council                                                         35,183
93   WI   Wisconsin Indian Consortium                                                                  34,149
94   AK   Kenaitze Indian Tribe                                                                        29,320
95   MN   Fond Du Lac R.B.C.                                                                           23,455
96   TX   Ysleta del Sur Pueblo                                                                        22,420
97   AK   Orutsararmuit Native Council                                                                 20,696
98   NV   Shoshone-Paiute Tribes                                                                       18,972


                                                                             Recovery Act: WIA Youth Program 

                                                        16                       Report No.18-11-006-03-390 

                                                             Prepared by Ollie Green & Company, CPA’s
                                              for U. S. Department of Labor – Office of Inspector General

99    OR   Confed. Tribes of the Umatilla Indian Res                                               18,972
100   AK   Aleutian/Pribilof Islands Association                                                    15,522
101   NM   Pueblo of Isleta                                                                         15,177
           Total                                                                              $315,046,986




                                                                         Recovery Act: WIA Youth Program 

                                                       17                    Report No.18-11-006-03-390 

                      Prepared by Ollie Green & Company, CPA’s
       for U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                  Recovery Act: WIA Youth Program
                18                    Report No.18-11-006-03-390
                              Prepared by Ollie Green & Company, CPA’s
               for U. S. Department of Labor – Office of Inspector General




Appendices 





                                          Recovery Act: WIA Youth Program
                        19                    Report No.18-11-006-03-390
                      Prepared by Ollie Green & Company, CPA’s
       for U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                  Recovery Act: WIA Youth Program
                20                    Report No.18-11-006-03-390
                                                       Prepared by Ollie Green & Company, CPA’s
                                        for U. S. Department of Labor – Office of Inspector General

                                                                                          Appendix A
Background

The Recovery Act was signed into law by the President on February 17, 2009, to
preserve and create jobs, promote economic recovery, and assist those most impacted
by the recession. As of August 19, 2010, Congress had provided $70.8 billion 7 in
Recovery Act funds to DOL to, among other things, provide summer employment
opportunities for youth and increase employment and training opportunities. The stated
purposes of the Recovery Act were to:

    •		 Preserve and create jobs and promote economic recovery;
    •		 Assist those most impacted by the recession;
    •		 Provide investments needed to increase economic efficiency by spurring 

        technological advances in science and health; 

    •		 Invest in transportation, environmental protection, and other infrastructure
        that will provide long-term economic benefits; and stabilize state and local
        government budgets, in order to minimize and avoid reductions in essential
        services and counterproductive state and local tax increases.

The Recovery Act required agencies to implement an unprecedented level of
transparency and accountability to ensure the public can see where and how their tax
dollars are being spent and recipients of these funds deliver programmatic results.

The Workforce Investment Act of 1998 enacted a formula-funded youth program serving
eligible low-income youth, ages 14-21, who face barriers to employment. Funds for
youth services were allocated to States and Local Areas based on a formula
distribution. Service strategies, developed by workforce providers, prepare youth for
employment and/or post-secondary education through strong linkages between
academic and occupational learning. Local communities provide youth activities and
services in partnership with the WIA One-Stop Career Center System and under the
direction of local Workforce Investment Boards.

Section 129 of WIA described the purposes of the WIA Youth Program (Section a) and
the allowable activities and services on which States and Local Areas can spend funds
(Section c). Additionally, WIA required that at least 30 percent of the funds be spent on
out-of-school youth. In fiscal year 2010, Congress appropriated more than $924 million
for the WIA Youth Program. For Program Year 2008, ETA reported that the WIA Youth
Program served 275,243 young people and achieved a 66 percent placement rate in
employment or education—higher than the planned goal of 59 percent.

The Division of Youth Services (within ETA’s Office of Workforce Investment) has
responsibility to oversee and administer the program.


7
 The total amount does not include $6 million provided to the OIG to provide oversight over the
Department’s recovery Act activities.

                                                                      Recovery Act: WIA Youth Program 

                                                   21		
                                                     		                   Report No.18-11-006-03-390 

                                                 Prepared by Ollie Green & Company, CPA’s
                                  for U. S. Department of Labor – Office of Inspector General

Title VIII of the Recovery Act provided DOL with an additional $1.2 billion in WIA
formula funds for youth employment and training activities. The Recovery Act also
extended the youth eligibility age from 21 to 24. The Recovery Act allows states to
spend additional WIA Youth Program funds on activities related to any of the 10
program elements described in Section 129 of WIA. Because the Recovery Act allows
DOL to retain one percent of the funds for program administration and oversight, the
actual allotment to States was $1.188 billion. States have until June 30, 2011, to spend
these additional funds.

In March 2009, ETA issued two guidance letters on spending additional WIA formula
funds provided by the Recovery Act. These include Training and Employment
Guidance Letter (TEGL) 13-08 and on March 6, 2009 TEGL 14-08. TEGL 13-08
(Attachment II) contained a list of State allotments for the WIA Youth Program under the
Recovery Act. TEGL 14-08 provided information that states and Local Areas might
consider in planning how to use additional WIA Youth Program funds. TEGL 14-08 also
included instructions to states on submitting modified WIA Plan by June 30, 2009. ETA
issued TEGL 24-08 on May 21, 2009, which provided guidance for reporting
performance accountability for programs receiving additional funds under the Recovery
Act.




                                                             Recovery Act: WIA Youth Program 

                                           22                    Report No.18-11-006-03-390 

                                                 Prepared by Ollie Green & Company, CPA’s
                                  for U. S. Department of Labor – Office of Inspector General


                                                                               Appendix B
Objectives, Scope, Methodology, and Criteria

Objective

The objectives of our audit were to determine:

(1) How did Local Areas spend or how were they planning to spend their allocation of
    WIA Youth Formula Funds?

(2) Who were the participants in the WIA Youth Program?

(3) What services were participants in the WIA Youth Program receiving?

(4) What were the outcomes for participants enrolled in the WIA Youth Program?

(5) To what extent were employers using the Work Opportunity Tax Credit to hire
    disconnected youth (ages 16 to 24) as provided by the Recovery Act?

Scope

Our performance audit covered the period from February 17, 2009, to September 30,
2010. We conducted our fieldwork at the ETA National Office in Washington, D.C., at a
pilot LWIB in Louisville, Kentucky; through phone interviews, surveys and data
collection instruments with 101 LWIBs, Statewide WIA youth activities, and INA
grantees selected in a statistical sample. Our performance audit was not designed to,
and we did not, perform a financial audit of the amounts obligated or expended at any of
the LWIBs, Statewide WIA youth activities or INA grantees.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provided a reasonable basis for our findings and conclusions based on our
audit objectives.

Methodology

To accomplish our audit objectives, we obtained an understanding of Title VIII of the
Recovery Act, which provided DOL with an additional $1.2 billion in WIA formula funds
for youth employment and training activities. The Recovery Act also extended the youth
eligibility age from 21 to 24. The Recovery Act allows states and Outlying Areas and
INA grantees to spend additional WIA Youth Program funds on activities related to any
of the 10 program elements described in Section 129 of WIA. We also conducted
interviews with ETA, State and LWIB officials in performing our work. The information in

                                                             Recovery Act: WIA Youth Program 

                                           23                    Report No.18-11-006-03-390 

                                                  Prepared by Ollie Green & Company, CPA’s
                                   for U. S. Department of Labor – Office of Inspector General

this report was developed by DOL-OIG independent of ETA. The DOL-OIG is
legislatively independent and charged with performing independent audit of DOL. Ollie
Green and Company under contract with the DOL-OIG collected information directly
from LWIBs, Statewide Youth Activities, and INA grantee officials in all 52 states and
territories.

Our methodology for this performance audit included the use of statistical sampling. The
application of the sampling process was conducted in conjunction with the DOL-OIG
statistician. The statistical sampling universe for our model was defined as LWIBs,
Statewide WIA youth activities, and INA grantees. The audit covered the period from
Recovery Act enactment through September 30, 2010. The 101 sampling units
illustrated in Exhibit 1 from a universe of 830 accounted for 26.5 percent of total dollar
value of Recovery Act funds allocated to the universe. Our sample test results were
estimated to the universe by the DOL-OIG statistician. We determined our sample size
of 101 units using a 95 percent confidence level and a precision of plus/minus 5
percent.

We performed a data reliability assessment to ensure we were receiving complete and
accurate data in our surveys and DCIs. To determine whether data was reliable to
select our sample, we met with the Unit Chief, Youth Policy and Performance Unit at the
National Office to discuss controls over the processing and reporting of fiscal and
performance data. To gain a better understanding of the processing and reporting of
fiscal and performance information, we requested from ETA and received a description
and flowchart of systems in place designed to ensure the integrity of data processed at
the LWIB/INAs level. We used checklists to assess the integrity of the information
received on each DCI received. If DCI information was questionable based on checklist
requirements, we contacted the LWIB/INAs and requested clarification and/or
modification of information received. We reviewed systems data validation checks, edit
checks, report validation, data element validation and, batch totals and concluded that
the data received from LWIB/INAs in their DCIs was sufficiently reliable for our audit
purposes.

We used a random sampling method with stratified design to provide effective coverage
of the units to obtain precise estimates of the characteristics tested. Each unit was
tested for multiple characteristics as discrete variables involving nominal measures. An
explanation of the audit test results and relevance of the test to the audit’s objectives is
provided in the body of the audit report.

We used structured interviews, surveys and data collection instruments to perform our
audit. The interviews were conducted during November 2010 through January 2011.
We supplemented the data we gathered from LWIBs, Statewide WIA youth activities,
and INA grantee officials and with publicly available data from DOL’s website at
www.doleta.gov/recovery/ and other information provided by ETA. As a result,
information in our report does not include nonpublic information, which LWIBs,
Statewide WIA youth activities, and INA grantees may have provided to DOL.


                                                              Recovery Act: WIA Youth Program 

                                             24                   Report No.18-11-006-03-390 

                                                 Prepared by Ollie Green & Company, CPA’s
                                  for U. S. Department of Labor – Office of Inspector General

A performance audit includes gaining an understanding of internal controls considered
significant to the audit objectives, testing controls, and testing compliance with
significant laws, regulations and other requirements. For this engagement, we obtained
an understanding of ETA’s process for evaluating the integrity of fiscal and performance
data submitted by States and Local Areas receiving Recovery Act formula funding. The
testing of internal controls over this process was not determined to be significant to our
audit objectives.

Criteria

We used the following criteria to accomplish our audit:

       •		   The American Recovery and Reinvestment Act of 2009;
       •		   Training and Employment Guidance (TEGL)Letter 13-08 dated March 8,
             2009, including Attachment II;
       •		   Training and Employment Guidance (TEGL) Letters14-08 dated March 18,
             2009; including Change.
       •		   Training and Employment Guidance (TEGL)Letter 24-08 dated May 21,
             2009;
       •		   Workforce Investment Act- Sections 126 through 129;
       •		   Workforce Investment Act – Final Regulations;
       •		   OMB Memorandum 09-15, Updated Implementing Guidance for the
             American Recovery and Reinvestment Act of 2009, April 3, 2009;
       •		   Federal Acquisition Regulations;
       •		   Federal Register;
       •		   Wagner-Peyser Act, as amended (29 U.S.C 49 et seq.)
       •		   20 CFR Part 667.210




                                                             Recovery Act: WIA Youth Program
                                            25                   Report No.18-11-006-03-390
                      Prepared by Ollie Green & Company, CPA’s
       for U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                  Recovery Act: WIA Youth Program 

                26                    Report No.18-11-006-03-390 

                                             Prepared by Ollie Green & Company, CPA’s
                              for U. S. Department of Labor – Office of Inspector General

                                                                          Appendix C
Acronyms and Abbreviations

ARRA          American Recovery and Reinvestment Act of 2009

DCI           Data Collection Instrument

DOL           Department of Labor

ETA           Employment and Training Administration

LWIB          Local Workforce Investment Board

LWIB/INA      Local Workforce Investment Board/Indian or Native American

OG&C          Ollie Green &Company, CPA’s

OIG           Office of Inspector General

TEGL          Training and Employment Guidance Letter

WIA           Workforce Investment Act

WOTC          Work Opportunity Tax Credit




                                                         Recovery Act: WIA Youth Program 

                                         27                  Report No.18-11-006-03-390 

                      Prepared by Ollie Green & Company, CPA’s
       for U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                  Recovery Act: WIA Youth Program
                28                    Report No.18-11-006-03-390
                                                    Prepared by Ollie Green & Company, CPA’s
                                     for U. S. Department of Labor – Office of Inspector General

                                                                                           Appendix D
Employment and Training Administration Response to Draft Report


      u .s . Department of Labor               Assistant secretary lor
                                               Employment and Training
                                               Washington, D.C. 20210


               MAR 2 2 1011


             MEMORANDUM FOR:            ELUOT P. LEWIS
                                        Assistant Inspector General for Audit
                                        Office of the Inspector General

             FROM:                      JANEOATFS            ~~
                                        Assistant Secretary for Employment and Training
                                        Employm~nt and Training Administration


             SUBJECT:                   Response to Draft Report Number: 18-11-006-03-390
                                        "Recovery Act: Workforce Investment Act Youth
                                        Program"

             We are pleased with the positive results of the audit entitled "Recovery Act:
             Workforce Investment Act (WIA) Youth Program." The audit report clearly
             demonstrates that the Employment and Training Administration (ETA) was able
             to effectively implement the Recovery Act WIA Youth activities funding
             provided by Congress. Your audit results also demonstrate that these funds will
             be fully spent and have been spent on their intended purpose, with the majority
             of funds spent on SUlmner employment and paid and unpaid work experiences.

             While ETA agrees with the audit results contained in the draft report, there are
             two minor changes required in the report's language in order to better convey
             factual information. First. on page one in the next to last sentence of the first
             paragraph, ETA recommends clarifying that the $1.188 billion allotment is for
             States as well as outlying areas and Indian and Native American (INA)
             programs.

             Second, on page two and eleven describing the requirements to track the Work
             Opportunity Tax credit (WOTC), ETA recommends clarifying that no
             LWIB/INAs were required to track the warc to hire disconnected youth. We
             recommend deleting the word "most" and replacing it with" although" so that
             the starement reads "Finally our audit founc.I that although LWIBjINAs were not
             required to track the warc ... 14 of the respondents surveyed indicated that
             they had implemented systems designed to track the ware used by
             employers."

             We appreciate the opportunity to review and comment on the draft report.




                                                                         Recovery Act: WIA Youth Program 

                                                 29                          Report No.18-11-006-03-390 

                      Prepared by Ollie Green & Company, CPA’s
       for U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                  Recovery Act: WIA Youth Program 

                30                    Report No.18-11-006-03-390 

                                              Prepared by Ollie Green & Company, CPA’s
                               for U. S. Department of Labor – Office of Inspector General

                                                                           Appendix E
Acknowledgements

Key contributors to this report were Ollie Green, MBA, CPA (Managing Partner) Mr.
Jerome Cooper (OIG Task Monitor), Susan Savitch, MS, CPA (Audit Manager), Andrea
Morris, CPA (Audit Manager), Sharon Adams, CIA, CPA (Audit Manager), Nermina
Mustafic (Staff Accountant), Elaine Styles (Staff Accountant).




                                                          Recovery Act: WIA Youth Program 

                                        31                    Report No.18-11-006-03-390 

                      Prepared by Ollie Green & Company, CPA’s
       for U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK






                                  Recovery Act: WIA Youth Program
                32                    Report No.18-11-006-03-390
TO REPORT FRAUD, WASTE, OR ABUSE, PLEASE CONTACT:

Online:				      http://www.oig.dol.gov/hotlineform.htm
Email:				       hotline@oig.dol.gov

Telephone:				   1-800-347-3756
                 202-693-6999

Fax:             202-693-7020

Address:         Office of Inspector General
                 U.S. Department of Labor
                 200 Constitution Avenue, N.W.
                 Room S-5506
                 Washington, D.C. 20210
